INSPECTOR GENERAL




       NATIONAL LABOR RELATIONS BOARD
                            WASHINGTON, DC 20570

I hereby submit this Semiannual Report: April 1,2003 - September 30,2003, which
summarizes the major activities and accomplishments of the Office of Inspector General
(OIG) of the National Labor Relations Board (NLRB or Agency). The submission of this
report is in accordance with the Inspector General Act of 1978, as amended (IG Act).
Section 5 of the IG Act requires that the Chairman transmit this report to the appropriate
committees or subcommittees of the Congress within 30 days of its receipt.

OIG issued two audit reports with costs that could be put to better use of $57,000, two
inspection reports, and one issue alert. In the investigations program, OIG processed 2 10
contacts, initiated 15 cases, and closed 13 cases. The investigations resulted in two
administrative actions and $5,098 in investigative recoveries. We reviewed four pieces of
legislation and three regulations. Details on these accomplishn~entscan be found in the
body of this report.

October 2003 is the 25thanniversary of the IG Act. The NLRB OIG was established
pursuant to the 1988 amendments to the Act. Over the past 15 years, the OIG has grown
to be an active contributor to the Agency and the IG community. The OIG has conducted
audits or investigations of many Agency functions and programs, including some with
government-wide interest such as security over information technology, Results Act
reports, and travel and purchase cards. We increased our contact with the Agency and
public by establishing a Hotline and a page on the Agency Web site. This year, OIG staff
was recognized with five Awards for Excellence for audit and investigative work.

We consider our highest achievements to include that we are able to reach agreement
with management on a high percentage of our recommendations, and actions on OIG
recommendations are usually completed within 1 year of reaching agreement. The NLRB
Chairman and General Counsel have changed over the years, and all have been supportive
of our mission. We look forward to working with the current Chairman, General
Counsel, and all Agency employees in our joint goal to improve Agency operations.



                                           YmJane E. Altenhofen
                                             October 3 1,2003
                                                           AGENCY PROFILE

The National Labor Relations Board              their employers and, if so, by which
(NLRB or Agency) is an independent              union; and (2) to prevent and remedy
Federal agency established in 1935 to           unlawful acts, called unfair fair labor
administer the National Labor Relations         practices, by either employers, unions,
Act (NLRA). The NLRA is the                     or both.
principal labor relations law of the
United States, and its provisions               NLRB authority is divided by law and
generally apply to private sector               delegation. The five-member Board
enterprises engaged in, or to activities        primarily acts as a quasi-judicial body in
affecting, interstate commerce. NLRB            deciding cases on formal records. The
jurisdiction includes the U.S. Postal           General Counsel investigates and
Service (other government entities,             prosecutes unfair labor practices before
railroads, and airlines are not within          administrative law judges, whose
NLRB’s jurisdiction).                           decisions may be appealed to the Board;
                                                and, on behalf of the Board, conducts
The NLRB seeks to serve the public              secret ballot elections to determine
interest by reducing interruptions in           whether employees wish to be
commerce caused by industrial strife. It        represented by a union.
does this by providing orderly processes
for protecting and implementing the             The Board consists of the Chairman and
respective rights of employees,                 four Members who are appointed by the
employers, and unions in their relations        President with the advice and consent of
with one another. The NLRB has two              the Senate. Board Members serve
principal functions: (1) to determine and       staggered terms of 5 years each. The
implement, through secret ballot                General Counsel is also appointed by the
elections, the free democratic choice by        President with the advice and consent of
employees as to whether they wish to be         the Senate and serves a 4-year term.
represented by a union in dealing with


NLRB OIG Semiannual Report                  1               April 1 – September 30, 2003
                                                                         AGENCY PROFILE

Former Board Member R. Alexander                 percent, leaving a net spending ceiling of
Acosta's term expired August 27, 2003.           $237,428,617 to fund an expected
His successor has not yet been                   ceiling of 1,952 full-time equivalents.
nominated. The terms of the other four           NLRB Headquarters is at 1099 14th
Members are as follows:                          Street, NW, Washington, DC.


•   Chairman Battista for a term                 In addition to the Headquarters building,
    expiring        December 16, 2007;           employees are located in 51 field offices
•   Member Liebman for a term expiring           throughout the country. Three satellite
    August 27, 2006;                             offices for the Administrative Law
•   Member Schaumber for a term                  Judges are located in Atlanta, San
    expiring August 27, 2005; and                Francisco, and New York. Since

•   Member Walsh for a term expiring             October 2, 2000, field offices included

    December 16, 2004.                           32 Regional Offices, 16 Resident
                                                 Offices, and 3 Subregional Offices.

NLRB received an appropriation of
$238,982,000 for Fiscal Year (FY) 2003,          Additional information about NLRB can

less an across-the-board rescission of .65       be found on the Web site www.NLRB.gov.




NLRB OIG Semiannual Report                   2              April 1 – September 30, 2003
                                    OFFICE OF INSPECTOR GENERAL

NLRB established the Office of Inspector General (OIG) pursuant to the 1988
amendments to the Inspector General Act of 1978 (IG Act).


Resources                                       Derek T. Harvey was a student assistant
The FY 2003 OIG budget is $882,427              from June 30 through September 5,
for operations, of which $69,900 is for         2003.
contract services. In addition to the
Inspector General, the OIG consists of a        William A. Garay entered on duty as a
Counsel/Assistant Inspector General for         Lead Auditor on September 8, 2003.
Investigations, Assistant Inspector
General for Audits, a criminal                  Bridgette S. Hicks, an OIG staff auditor,
investigator, three auditors, and a staff       accepted a position with the Federal
assistant.                                      Maritime Commission to be effective on
                                                October 19, 2003.




NLRB OIG Semiannual Report                  3              April 1 – September 30, 2003
                                                              AUDIT PROGRAM

The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate audits relating to program operations of the Agency. OIG issued two audit
reports with costs that could be put to better use of $57,000, two inspection reports, one
issue alert, and one report to Congress.

Reports Issued
•   We issued Audit Report OIG-AMR-              producing the Annual Report since we
39-03-04, Review of Data Accuracy in             reviewed the FY 1999 NLRB Annual
the FY 2001 Annual Report, on                    Report. Five Regional Offices,
September 30, 2003. This review was              however, were excluded from our scope
conducted to determine whether the FY            because management identified these
2001 Annual Report prepared by the               offices as having known data accuracy
NLRB accurately presented the                    problems.
Agency's accomplishments and was
                                                 By eliminating the Annual Report, we
timely.
                                                 estimate the Agency could put
                                                 approximately $57,000 to better use
We estimated that the Agency expended
                                                 each year. Much of the Annual Report
over $600,000 to produce Annual
                                                 consists of information, such as Board
Reports for FYs 2000 and 2001 that
                                                 decisions, that is already available to the
were no longer required. The Annual
                                                 public. Additional data thought to be of
Report for FY 2001, dated March 18,
                                                 interest to the public that is not
2003, was not available to the public
                                                 otherwise available could be posted on
until nearly 20 months after the end of
                                                 the Agency Web site.
the fiscal year. The FY 2002 Annual
Report has already been in production
                                                 Management stated that the decision
12 months.
                                                 whether to produce the Annual Report
                                                 and what form the report will take are
The Agency made significant progress in
                                                 matters to be addressed by the political
data accuracy and the processes for
                                                 leadership of the Agency.

NLRB OIG Semiannual Report                   4               April 1 – September 30, 2003
                                                                           AUDIT PROGRAM




•   We issued Audit Report OIG-AMR-              Service program to recover and restore
40-03-03, Information Security Review            IT services, and a program to monitor
of New Automated Systems, on                     potential security violations.
September 22, 2003. The objective of
this audit was to perform a general and          NLRB’s general and application controls
applications control review to determine         are not sufficient to adequately
whether financial, payroll/personnel, and        safeguard the NBC Systems. NLRB’s
procurement management systems                   logical and management security
services provided by Department of               controls are not adequate to prevent or
Interior National Business Center (NBC)          detect unauthorized activities or provide
are adequately safeguarded.                      reasonable assurance that financial
                                                 assets are safeguarded.
NLRB developed a Computer Security
Program Information Systems Security             Several access and application control

Policy that outlines how NLRB is                 weaknesses from the prior system were

responsible for the development,                 reintroduced into the new financial

implementation and maintenance of an             system. These weaknesses include

Information Technology (IT) security             inadequate separation of duties within

program that satisfies all applicable            the Finance Branch, weak access

Federal requirements. NLRB's network             controls that could compromise the

has reached an overall Level 2                   integrity of data input into the NLRB

effectiveness, in accordance with NIST’s         financial systems, and excessive

5 levels of effectiveness.                       privileges that could allow unauthorized
                                                 transactions to go undetected.

NLRB initiated but has not yet resolved
the findings in a prior report regarding a       Management agreed with all but one

security plan for its local access network       recommendation, for which alternative

or wide area network, a Continuity of            corrective action had been implemented.


NLRB OIG Semiannual Report                   5               April 1 – September 30, 2003
                                                                         AUDIT PROGRAM

The Government Information Security             and report on its Balance Sheet, non-
Reform Act requires inspectors general          entity assets and liabilities associated
to conduct annual reviews of                    with Backpay funds that are deposited
information security programs. On               with the US Treasury or invested in
September 22, 2003, the NLRB                    Treasury securities. We also determined
submitted to the Office of Management           that NLRB should recognize an accounts
and Budget its annual program review            receivable prior to receipt of Backpay
consisting of responses to the questions        cash, if receipt of such cash is pending at
posed by the Office of Management and           the balance sheet cutoff date.
Budget on information security and a
copy of this review.                            The systems used to record and process
                                                Backpay transactions by Finance have
•   We issued Inspection Report                 the capability to properly record
OIG-INS-27-03-04, Backpay Financial             Backpay transactions, and management
Management and Reporting                        maintains that it has developed and
Requirements, on August 21, 2003. We            implemented reconciliation and
conducted this inspection to review             verification controls. The systems,
financial management and reporting              however, do not comply with Office of
requirements for Backpay funds and              Management and Budget (OMB)
whether systems maintained at                   Circular A-127, Financial Management
Headquarters and Regional Offices can           Systems.
generate timely and accurate information
to make necessary accounting entries.           Because substantial issues remained on
                                                the accounting status of Backpay funds,
We concluded that NLRB is required to           we requested a determination from OMB
provide footnote disclosure only, related       on the proper accounting treatment.
to Backpay funds that are not deposited         OMB agreed that two categories of
with the United States Treasury; and is         Backpay needed to be noted on the
required to provide footnote disclosure         financial statements.

NLRB OIG Semiannual Report                  6               April 1 – September 30, 2003
                                                                             AUDIT PROGRAM

•   We issued Inspection Report OIG-             We reviewed the Agency’s training
INS-28-03-05, Review of Education                records for Fiscal Year 2001. That
Credentials, on September 26, 2003.              review did not disclose that the Agency
We initiated this inspection to verify the       paid for any courses at nonaccredited
existence of employee education                  colleges or universities.
credentials and whether or not they were
received from accredited institutions.           •   We issued Issue Alert OIG-IA-03-
We also reviewed the Agency’s training           03, Financial Statement Audit – Legal
records to determine if the Agency               Representation Letter, on August 28,
funded training at nonaccredited                 2003. This Issue Alert notified the
colleges or universities.                        Agency of the requirement to produce a
                                                 Legal Representation Letter disclosing
We found that 441 of 454 employees               potential liabilities as part of the process
completed the degree requirements at an          in auditing the FY 2004 financial
accredited United States college or              statements.
university as indicated in their Official
Personnel File (OPF). We excluded                We suggested that the General Counsel
attorney and administrative law judge            is in the best position to respond to the
positions as these were previously               request for the Legal Representation
reviewed.                                        Letter because the two parts of the
                                                 Agency that are responsible for
We initiated investigations of 12                representing the Agency in litigation, the
employees who either did not complete            Special Counsels and the Division of
the highest degree indicated in his or her       Enforcement Litigation, are under the
OPF, completed the degree after the date         purview of the Office of the General
indicated on their application, or               Counsel. In a memorandum dated
attended a nonaccredited school.                 September 24, 2003, the General
                                                 Counsel concurred that he is in the best



NLRB OIG Semiannual Report                   7                 April 1 – September 30, 2003
                                                                             AUDIT PROGRAM

position to respond to the request for the         When a labor dispute arises in an area
Legal Representation Letter.                       that is not located near a field office, it is
                                                   the policy of the NLRB to send a field
•   Pursuant to section 638 of the                 agent to that area to conduct an
Consolidated Appropriations Resolution,            investigation and to conduct hearings at
2003, Public Law 108-7, February 20,               a location near to the witnesses.
2003, we provided a report to the                  Additionally, when the NLRB conducts
Committees on Appropriations detailing             an election, the election is held at the
what policies and procedures are in                location of the employer. Agency
place at the NLRB to give first priority           managers believe that this practice is the
to the location of new offices and other           most cost-effective means of office
facilities in rural areas, as directed by          placement.
the Rural Development Act of 1972.
                                                   Audit Follow-up
The Agency does not have a written                 Agreed upon actions were not completed
policy giving first priority to the location       within 1 year on four audit reports, two
of new offices in rural areas. The                 of which are now closed.
Agency's field office placement practice
is based on analyzing case filings to              •   Review of Information Systems
achieve the most efficient means of                Security, OIG-AMR-30-00-03, was
getting quickly to labor disputes.                 issued on September 29, 2000. We
Typically, this results in having field            reached agreement with management on
offices in locations that are more likely          actions needed to implement the 15
to have labor unrest, such as in and               recommendations made in the report on
around major cities or industrial areas.           December 27, 2000. Action is
Agricultural laborers and their labor              reportedly completed on 14 of the 15
disputes are excluded from the NLRB's              recommendations. Management is
jurisdiction.                                      working to implement the remaining



NLRB OIG Semiannual Report                     8                April 1 – September 30, 2003
                                                                    AUDIT PROGRAM

recommendation to install password           December 31, 2003. The open
management software.                         recommendation consists of
                                             implementing a new help desk system
•   Audit of Case Activity Tracking          with asset management software.
System Security, OIG-AMR-33-01-02,
was issued on August 1, 2001, and we         •   Evaluation of Board Casehandling
reached agreement with management on         Reports, OIG-AMR-37-02-03, was
actions needed to implement the six          issued on September 20, 2002. We
recommendations on that date. Actions        reached agreement with management on
necessary to close this audit were           actions needed to implement four
completed by September 30, 2003.             recommendations made in the report on
                                             September 20, 2002. Actions necessary
•   Audit of Property Controls Over          to close this audit were completed by
ADP Items, OIG-AMR-32-01-03, was             September 30, 2003.
issued on September 27, 2001. We
reached agreement with management on
actions needed to implement the two
recommendations made in the report on
December 13, 2001. Action is
reportedly completed on one of the two
recommendations.




Management is working to implement
the remaining recommendation by

NLRB OIG Semiannual Report               9              April 1 – September 30, 2003
                                               INVESTIGATIONS PROGRAM

The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate investigations relating to the programs and operations of the Agency. OIG
processed 210 contacts, initiated 15 cases, and closed 13 cases. The investigations
resulted in one loss of leave, one written reprimand, and $5,098 in investigative
recoveries. One case was referred for prosecution.


                         Case Workload                   Contacts Processed

                   Open (4/1/2003)        13        Received                  210

                   Initiated              15        Initiated Investigation    3

                   Closed                 13        Opened Case --              0
                                                    Referred to Agency
                   Open (9/30/2003)       15        Non-Investigative         207
                                                    Disposition


•   Sexually Explicit Material. As                   written reprimand and agreed to donate
previously reported, OIG initiated an                80 hours of annual leave at a value of
investigative review to determine if the             $4,783. (OIG-I-321 and OIG-I-323)
personnel in the Headquarters were
misusing the Agency’s Internet access to             •    Transit Subsidy Abuse. As
view sexually explicit material. As a                previously reported, OIG initiated an
result of this review, we initiated                  investigative review of the Agency
investigations involving five subjects.              transit subsidy program by comparing
                                                     parking permit records to a list of the
The final two investigations were                    Agency’s transit pass program
completed during this reporting period.              participants. The investigation
For one subject, the investigation did not           substantiated an allegation that a subject
disclose evidence to support the                     was participating in the transit subsidy
allegation. For the remaining subject,               program while he was named on a
the investigation substantiated the                  worksite-parking permit. During this
allegation and the subject received a                reporting period, the subject made


NLRB OIG Semiannual Report                     10                   April 1 – September 30, 2003
                                                                INVESTIGATIONS PROGRAM

restitution to the Agency in the amount            •   Witness Intimidation. OIG
of $315. (OIG-I-330)                               initiated an investigation after receiving
                                                   a report that a dog belonging to a
•   Bribery. OIG initiated an                      witness in a case pending before the
investigation after receiving a report that        Agency was killed to intimidate the
a field examiner attempted to bribe a              witness. The basis for the allegation was
witness by offering to pay the witness             that the dog’s death was caused when it
$250,000 to provide favorable                      was poisoned by being induced to eat
testimony. Evidence collected                      objects that could not be digested,
contradicted the statement of the witness          thereby causing the dog to suffer a long
who made the allegation.                           agonizing death in an effort to dissuade
                                                   the witness from providing evidence.
The investigation did, however, disclose
that one discriminatee who filed a                 Although there is no doubt that the dog
charge with the Region offered to                  died and that the death of the dog was
compensate the witness for his lost                caused by the ingestion of objects that
wages if he would miss work and go to              could not be digested, the investigation
the Regional Office to speak to the field          did not discover any evidence that the
examiner. While this offer of                      dog’s death was related to witness’
compensation may be inappropriate, it is           participation in a case before the Region.
not a bribe within the meaning of 18               The investigation disclosed that there
U.S.C. § 201 because it was not made               was a lack of threats or other
with the intent to influence testimony             communications to the witness regarding
under oath or affirmation. The U.S.                harm to her dog and her participation in
Attorney’s Office declined prosecution             the case, that the witness’ dog had a
for any of the individuals involved in             propensity to eat objects that could not
this matter. (OIG-I-331)                           be digested, and the witness’ other dog
                                                   was not harmed. (OIG-I-334)



NLRB OIG Semiannual Report                    11               April 1 – September 30, 2003
                                                               INVESTIGATIONS PROGRAM

                                                  OIG contacted OPM’s Office of the
•   Time and Attendance. OIG                      General Counsel and requested that they
initiated an investigation after receiving        review the regulation. OPM’s Office of
a number of Hotline complaints                    the General Counsel responded that this
regarding the advancement of sick leave           issue would be addressed when the
to a Regional employee and the                    regulation is next revised. The Agency
improper solicitation of donated leave            agreed to remind managers with the
for the employee.                                 authority to approve advance sick leave
                                                  requests of the requirements for such
The investigation did not disclose                approval. (OIG-I-332)
evidence to support the allegation that
there was an improper solicitation of             •   Worker’s Compensation Fraud.
annual leave. Most of the employee’s              OIG received an allegation that an
requests for advance sick leave were              employee was working at a part-time
accompanied with documentation of a               outside employment position while
serious disability or ailment.                    being excused from her Government
                                                  position due to a worker’s compensation
Advance sick leave was also approved              claim. Documentation obtained by
for routine illness, care of a family             subpoena from her outside employer
member, and for the funeral of a family           established that the subject did not work
member. Such uses of advance sick                 at her part-time position during that
leave are not authorized by 5 U.S.C.              period of time. This documentation did,
6307. The Office of Personnel                     however, provide a start date for the
Management (OPM) regulation, 5                    subject’s outside employment that was
C.F.R. 630.401, however, purports to              different than the date provided by the
allow up to 40 hours of sick leave to be          subject when she requested approval for
advanced to care for a family member              the part-time position. The information
and for bereavement.                              regarding the start date was provided to
                                                  the subject’s manager. (OIG-I-333)


NLRB OIG Semiannual Report                   12              April 1 – September 30, 2003
                                                                INVESTIGATIONS PROGRAM

                                                   writing. Three contacts resulted in OIG
Hotline                                            investigative cases.

Employees and members of the public
with information on fraud, waste, and
abuse are encouraged to contact OIG. A
log of calls to a nationwide toll free
number or the office numbers and a log
of mail, e-mail, and facsimile messages
are maintained. All information
received, regardless of the method used,
is referred to as HOTLINE contacts.


The information received over the
hotline is the basis for the initial review
for potential investigations. The
information is analyzed to determine if
further inquiry is warranted. Most
HOTLINE contacts are calls from
members of the public seeking help on
an employment related problem or issues
outside OIG and/or Agency jurisdiction.
As appropriate, OIG refers these callers
to the NLRB office; local, state, or
Federal agency; or private resource to
provide assistance.

During this reporting period, OIG
received 210 hotline contacts, of which
55 were telephone calls and 155 were in

NLRB OIG Semiannual Report                    13              April 1 – September 30, 2003
                  LEGISLATION, REGULATIONS, AND POLICY

The Inspector General is to review existing and proposed legislation and regulations
relating to programs and operations of the Agency and is to make recommendations
concerning the impact of such legislation or regulations. Similarly, we review Agency
and OIG policy. We reviewed four pieces of legislation, three regulations, and three
policy documents.

Legislation                                       S. 837, the Commission on the
We reviewed the following legislation             Accountability and Review of Federal
and provided input when appropriate.              Agencies Act. This legislation would
                                                  establish a 12-member presidentially
S. 782 and H.R. 1909, legislation to              appointed commission to conduct a
amend the NLRA to provide for inflation           comprehensive review of Federal
adjustments to the mandatory                      agencies and programs. The
jurisdiction threshold of the NLRB.               commission would also recommend the
This legislation would require the NLRB           elimination or realignment of
to adjust threshold jurisdiction amounts          duplicative, wasteful, or outdated
for inflation at least once every 5 years.        functions.


S. 633, the Small Business Federal                H.R. 1836, the Civil Service and
Contractor Safeguard Act. This                    National Security Personnel
legislation would generally prohibit an           Improvement Act. This legislation
agency from executing a procurement               would make changes to certain agencies
strategy that includes a consolidated             in areas of the Federal civil service in
contract valued at more than $2 million.          order to improve the flexibility and
It also would impose special                      competitiveness of Federal human
requirements on a procurement strategy            resources management.
that includes a consolidation valued at
more than $5 million.




NLRB OIG Semiannual Report                   14                April 1 – September 30, 2003
                                                 LEGISLATION, REGULATIONS, AND POLICY

Regulations                                       understand. We found the examples
•   On July 10, 2003, an updated                  used by the regulations to be particularly
Privacy Act Notice for the OIG                    easy to understand and anticipate that
investigative system of records became            they will assist in achieving a uniform
effective. The updated notice included            application of post-employment
changes to the routine uses to allow              restrictions.
disclosure of information to the public
when a legitimate public interest exists,         •   We provided comments to OPM
disclosure to members of the President's          stating that the proposed changes to 5
Council on Integrity and                          CFR Part 930 achieve the stated goals of
Efficiency/Executive Council on                   streamlining and clarifying the
Integrity and Efficiency (PCIE/ECIE)              requirements for IT security
for the purpose of accurate reporting to          awareness training. We commented
the President and Congress on the                 that this type of change is particularly
activities of the Inspectors General and          beneficial in light of the many other
for peer review of our investigative              requirements related to the management
activities, and disclosure to other               of an agency's IT systems. Streamlining
officials to achieve an investigative             and clarifying these requirements should
result.                                           allow management officials to focus
                                                  their efforts on complying with the
•   We provided comments to the                   requirements for security awareness
U.S. Office of Government Ethics                  training at all levels rather focusing that
regarding proposed post-employment                effort on determining what is required.
conflict of interest regulations. We              Additionally, we concurred that by
commented that the proposed                       incorporating by reference the National
regulations appear to offer the level of          Institute for Standard and Technology
clarity consistent with the Standards of          Web site the Government will be in a
Conduct regulations and that the                  better position to implement timely and
regulations should be easy to apply and           necessary changes.

NLRB OIG Semiannual Report                  15                April 1 – September 30, 2003
                                                 LEGISLATION, REGULATIONS, AND POLICY

                                                  timely manner standard be adopted in
Standards                                         lieu of defined timeframes. We also
•   We provided comments to the                   recommended that the quality standard
General Accounting Office regarding the           not adopt mandatory data elements for
Federal Accounting Standards Advisory             management information and that any
Board Exposure Draft, Accounting for              lists be illustrative.
Fiduciary Activities, April 2003. We
commented that the use of the Term                •   We provided comments to the
“fiduciary” unnecessarily limits the              PCIE regarding the proposed updated
disclosure that might otherwise be                policy statement on internal quality
appropriate. We recommended that the              control and external quality control
scope of the exposures draft be                   reviews from the PCIE Peer Review
expanded to include other assets that are         Guide. We suggested that the offices
held by the Government for the benefit            that do not fully implement an internal
of a third party, but which do not create         quality control system have the option to
the duties and responsibilities of a              implement controls other than
fiduciary relationship.                           referencing all reports.

•   We provided comments to the
PCIE/ECIE Investigations Committee
regarding an update of the Quality
Standards for Investigations. We
commented that the issue of timeliness
of an investigation was not treated
consistently throughout the document.


We recommended that timeliness be
treated consistently in each part of the
standards and that a due diligence and


NLRB OIG Semiannual Report                  16                 April 1 – September 30, 2003
                                                        LIAISON ACTIVITIES

The Inspector General is to recommend policies for, and is to conduct, supervise, or
coordinate relationships between the Agency and other Federal agencies, state and local
governmental agencies, and non-governmental entities. The Inspector General is to give
particular regard to the activities of the Comptroller General of the United States, as head
of GAO. Similarly, we encourage OIG staff members to participate in Agency programs
and activities. OIG staff members are active in the inspector general community and
Agency activities.

Inspector General Community                       to a committee that revised the Quality
•   The Inspector General is a member             Standards for Federal Offices of
of the ECIE, which consists primarily of          Inspector General. In honor of the 25th
the inspectors general at the designated          anniversary of the Inspector General Act
Federal entities in the 1988 amendments           of 1978, the quality standards will be
to the IG Act. She participated in                known as the “Silver Book.” These
activities sponsored by the PCIE, which           standards set forth the overall quality
consists primarily of the Presidentially-         framework for managing, operating, and
appointed inspectors general. She joined          conducting the work of the Offices of
the Audit Committee in May 2001.                  Inspector General.


The Assistant Inspector General for               OIG staff received five Awards for
Audits, or designated auditors,                   Excellence for audit and investigation
participated in the Federal Audit                 work. These awards were presented at
Executives Council, Financial Statement           the PCIE and ECIE Sixth Annual
Audit Network, and PCIE Results Act               Awards Ceremony celebrating the 25th
Group.                                            Anniversary of the Inspector General
                                                  Act of 1978 on October 16, 2003. An
The Counsel participated in the Council           awards ceremony and open house was
of Counsels to Inspectors General. The            also held at the NLRB OIG on Friday,
Counsel is also the ECIE representative           October 17, 2003.




NLRB OIG Semiannual Report                   17               April 1 – September 30, 2003
                                                                LIAISON ACTIVITIES

The Awards for Excellence were:           Agency Activities
                                          The Counsel is an advisory member of
 Travel and Purchase Card Team           the Government Paperwork Elimination
   Emil T. George                         Act Committee. During this reporting
   David P. Berry                         period, the Committee announced a pilot
   Bridgette S. Hicks                     Board e-filing project that will allow
   Kathryn A. Jones                       parties to use the Agency’s Web site to
                                          file electronic extensions of time to file
 Improper Use of Government              documents with the Board. The
   Computers Team                         Committee is in the process of
   David P. Berry                         identifying and researching off-the-shelf
   Kathryn A. Jones                       software that will enhance response
                                          capability for Freedom of Information
 Review of Agency Leased Vehicles        Act (FOIA) requests and is developing
   Emil T. George                         the infrastructure to support electronic
   Bridgette S. Hicks                     FOIA request for field offices. The
                                          Committee continues to work toward
 Voluntary Participation in an           electronic filing formats.
   Investigative Peer Review
   David P. Berry                         General Accounting Office
   Dawn Nelson                            The IG Act states that each inspector
                                          general shall give particular regard to the
 Assisting the Merit Systems             activities of the Comptroller General of
   Protection Board                       the United States with a view toward
   David P. Berry                         avoiding duplication and ensuring
                                          effective coordination and cooperation.
                                          No reviews are currently ongoing.




NLRB OIG Semiannual Report           18               April 1 – September 30, 2003
                           INFORMATION REQUIRED BY THE ACT

Certain information and statistics based on the activities accomplished during this period
are required by section 5(a) of the IG Act to be included in the semiannual reports. These
are set forth below:

Section 5(a)

(1), (2), (7)   OIG identified significant problems, abuses or deficiencies relating to the
                administration of information systems security (see page 5). For the purpose of
                this section, we used the definition of significant as set forth in the Federal
                Managers' Financial Integrity Act.

(3)             Corrective action has been completed on all significant recommendations
                that were described in the previous semiannual reports.

(4)             One matter was referred to prosecutorial authorities. There were no
                prosecutions or convictions.

(5)             No reports were made to the Chairman that information or assistance requested
                by the Inspector General was unreasonably refused or not provided.

(6)             A listing by subject matter is located on page 20.

(8), (9)        No audit reports issued during this period had a recommendation on questioned
                costs. One audit report identified funds that could be put to better use. See
                Tables 1 and 2.

(10)            There are no audit reports issued before the commencement of the
                reporting period for which no management decision has been made
                by the end of the reporting period.

(11)            No significant revised management decisions were made during the reporting
                period.

(12)            There were no significant management decisions with which I am in
                disagreement.




NLRB OIG Semiannual Report                      19                   April 1 – September 30, 2003
                         AUDIT REPORTS BY SUBJECT MATTER

                                                                         Funds To
                                 Questioned   Unsupported   Ineligible   Be Put To
Report Title and Number           Costs          Costs        Costs      Better Use

ADMINISTRATION

Review of Data Accuracy in the
FY 2001 Annual Report,
OIG-AMR-39-03-04                     0             0            0         57,000

Information Security Review of
New Automated Systems,
OIG-AMR-40-03-03                     0             0            0            0




NLRB OIG Semiannual Report               20            April 1 – September 30, 2003
Table 1                        REPORTS WITH QUESTIONED COSTS

                                                           Dollar Value
                                      Number of    Questioned      Unsupported
                                       Reports       Costs            Costs
A. For which no management
   decision has been made by the
   commencement of the period             0            0               0

B. Which were issued during the
   reporting period                       0            0               0

       Subtotals (A+B)                    0            0               0


C. For which a management
   decision was made during the
   reporting period                       0            0               0

(i)      Dollar value of disallowed
         costs                            0            0               0

(ii)    Dollar value of costs not
        disallowed                        0            0               0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                 0            0               0

       Reports for which no
       management decision was
       made within six months of
       issuance                           0            0               0




NLRB OIG Semiannual Report                    21       April 1 – September 30, 2003
                              REPORTS WITH RECOMMENDATIONS
Table 2                       THAT FUNDS BE PUT TO BETTER USE


                                      Number of    Questioned
                                       Reports       Costs
A. For which no management
   decision has been made by the
   commencement of the period             0            0

B. Which were issued during the
   reporting period                       1         $57,000

       Subtotals (A+B)                    1         $57,000


C. For which a management
   decision was made during the
   reporting period                       0            0

(i)      Dollar value of disallowed
         costs                            0            0

(ii)    Dollar value of costs not
        disallowed                        0            0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                 0            0

       Reports for which no
       management decision was
       made within six months of
       issuance                           0            0




NLRB OIG Semiannual Report                    22       April 1 – September 30, 2003
                        Fraud Waste Abuse -
                        You can stop it!

                        Call the IG HOTLINE
                        800 736-2983

                        Or Write to the
                        Office of Inspector General
                        NLRB
                        1099 14th Street, NW
                        Washington, DC 20570




NLRB OIG Semiannual Report       23           April 1 – September 30, 2003
